Unaccompanied Juveniles in INS Custody
Unaccompanied Juveniles in INS Custody
Report Number I-2001-009
September 28, 2001
TABLE OF CONTENTS
EXECUTIVE SUMMARY
CHAPTER ONE: INTRODUCTION
Scope and Methodology
Background
Organization of the Juvenile Program
Principal Provisions of Flores v. Reno
Facilities
Immigration Process for Unaccompanied Juveniles
Results of the Inspection
CHAPTER TWO: COMPLIANCE WITH POLICIES AND PROCEDURES
Segregation of Juveniles
Recommendation
Juvenile and Facility Visits
Visits
Definition and Documentation of Visits
Recommendation
Custody Management Issues
Same-Sex Transport
Documentation of Transportation and Detention
Escort of Juveniles Upon Release
Use of Restraints
Telephone Access
Recommendations
Placement Requirement
Possible Overdue Placements
Border Patrol Placement Problems
Other Obstacles to Timely Placement
Recommendation
CHAPTER THREE: PROGRAM OVERSIGHT
Operational and Administrative Support
Operational Support
Border Patrol
Potential Harm to Juveniles
Administrative Support
Recommendations
Responsibilities of the INS and Facilities
Chicago Connections
Central Juvenile Hall - Eastlake, Los Angeles
Best Practices
Recommendations
Acquisition of Bed Space
Medium Secure Beds
Recommendation
Juvenile Program Management
Juvenile Alien Management System Data
Significant Incident Reports
Facility Inspections
Updating Policy and Guidance
Data Entry Errors
The Meaning of Influx
Recommendations
Training
Recommendation
CHAPTER FOUR: RELATED PROCESSES
Length of Time in Custody Before Release
Release Policies
Clarification of Release Policy
Recommendation
Problems Related to EOIR Hearings
Limitations on Available Legal Aid
Continuances of Immigration Hearings
Juvenile Docket Management
Outcomes
Recommendations
CHAPTER FIVE: RECOMMENDATIONS
Chapter II: Compliance With Policies and Procedures
Chapter III: Program Oversight
Chapter IV: Related Processes
APPENDIX I  -  SCOPE AND METHODOLOGY
APPENDIX II  -  DATA ANALYSIS METHODOLOGY
Data on Juveniles in Custody of Juvenile Program
Humanitarian Affairs Branch Data
Record of Intercepted Passenger System (RIPS)
G-23 Report of Deportable Aliens
Executive Office of Immigration Review Data
APPENDIX III - UNACCOMPANIED JUVENILE DATA
Time in custody for specific populations
Apprehension locations for the juveniles
Instances and Duration of Secure Detention
Juvenile-Days of Detention
Limited Use of Foster Care
Follow-up After Release
APPENDIX IV -  COMMONLY USED ABBREVIATIONS & TERMS
APPENDIX V -  INS MANAGEMENT'S RESPONSE
APPENDIX VI -  OIG'S ANALYSIS OF MANAGEMENT RESPONSE